<html>
<title> - REVIEWING THE CIVIL NUCLEAR AGREEMENT WITH NORWAY</title>
<body><pre>[Senate Hearing 114-709]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-709

                      REVIEWING THE CIVIL NUCLEAR 
                         AGREEMENT WITH NORWAY

=======================================================================

                                HEARING

                               BEFORE THE


                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION

                               __________

                           SEPTEMBER 15, 2016

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


                   Available via the World Wide Web:
                        http://www.fdsys.gpo.gov
                        
                        
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
27-082 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b3d4c3dcf3d0c6c0c7dbd6dfc39dd0dcde9d">[email&#160;protected]</a>                         


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
              Rob Strayer, Majority Chief Counsel        
            Margaret Taylor, Minority Chief Counsel        
                    John Dutton, Chief Clerk        


                              (ii)        

  

                           C O N T E N T S

                              ----------                              
                                                                   Page

Perdue, Hon. David, U.S. Senator From Georgia....................     1

Markey, Hon. Edward, U.S. Senator From Massachusetts.............     2

Countryman, Hon. Thomas M., Washington, DC.......................     3
    Prepared statement...........................................     4
    Responses to Questions for the Record Submitted to Assistant 
      Secretary Countryman by Senator Rubio......................    20
    Responses to Questions for the Record Submitted to Assistant 
      Secretary Countryman by Senator Perdue.....................    21



                             (iii)        

  

 
           REVIEWING THE CIVIL NUCLEAR AGREEMENT WITH NORWAY

                              ----------                              


                      THURSDAY, SEPTEMBER 15, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:18 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. David Perdue, 
presiding.
    Present: Senators Perdue [presiding], Gardner, and Markey.

            OPENING STATEMENT OF HON. DAVID PERDUE, 
                   U.S. SENATOR FROM GEORGIA

    Senator Perdue. The Foreign Relations Committee will come 
to order.
    Today we are here to exercise a statutory responsibility 
for Congress to review agreements related to the cooperation on 
civil nuclear programs, also known as 123 agreements, between 
the United States and foreign nations.
    The agreement in question is a renewal of the 123 Agreement 
between the U.S. and the Kingdom of Norway. As a part of our 
due diligence, we must consider the political, economic, and 
security aspects of this agreement and weigh the risks and 
benefits before moving forward.
    The initial agreement with Norway was in force from July 
1984 until July 2014. Since that time, it has been a lapsed 
agreement.
    The United States and Norway have a longstanding 
partnership on nuclear cooperation that goes back for more than 
half a century. Today Norway runs the Halden Reactor Project 
which serves as a critical asset to the U.S. nuclear industry.
    President Obama transmitted the proposed text of a new 30-
year agreement for congressional review on June 14, 2016. Today 
we will examine this agreement and how it advances U.S. 
strategic, political, and economic interests, if it advances 
U.S. nonproliferation objectives and any key concerns that the 
administration has about this agreement, as well as how those 
concerns might be mitigated.
    I am particularly concerned regarding potential issues with 
export controls and ensuring that none of our agreements help 
bad actors in getting dual-use technology or other sensitive 
materials.
    I look forward to hearing from our witness, Assistant 
Secretary Countryman, who is no stranger to this committee. 
Thank you again for being here.
    And with that, I would like to recognize the distinguished 
ranking member for his comments, Senator Markey.

              STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much, and 
thank you for having this hearing.
    And we thank Secretary Countryman for his visit once again 
to our committee. He is definitely in the top five all-time 
visitors to this committee. Nobody has bigger issues more 
frequently being considered before the committee.
    And I thank you, Mr. Chairman, for helping to construct a 
forum by which we can review this agreement, and it gives us an 
opportunity to discuss the difficult and vital issues 
surrounding our global nuclear nonproliferation policies.
    Since the 1970s, the United States has tried to discourage 
other countries from engaging in uranium enrichment and spent 
fuel processing. These activities can be used to produce fuel 
either for power plants or for nuclear bombs. Without 
enrichment or reprocessing, states cannot produce the material 
needed for nuclear weapons. So the restriction on these 
technologies represents a powerful tool for global 
nonproliferation.
    Unfortunately, many of our nuclear cooperation agreements 
depart from the objective of discouraging the production of 
weapons-usable material by permitting countries to reprocess 
U.S.-obligated spent fuel.
    This recent agreement with Norway is regrettably an example 
of such an agreement. The agreement does prohibit Norway from 
enriching U.S.-obligated fuel without our consent, but it 
provides Norway with advanced consent to retransfer spent fuel 
for reprocessing to the United Kingdom, France, or any other 
country that we agree to. This is similar to the consent that 
we have provided to a number of other countries, including 
Japan.
    Norway's record with respect to nonproliferation is not an 
issue here. As a founding member of NATO, Norway is one of our 
closest allies, and it is a member in good standing of 
virtually every institution comprising the global 
nonproliferation regime, including the NPT and the IAEA. What 
is at issue is the decision to sign yet another agreement that 
legitimizes the continued use of a technology that threatens 
U.S. national security.
    Norway is an exemplary ally, but this agreement is far from 
exemplary. The United States should not be signing additional 
nuclear cooperation agreements that encourage reprocessing. 
Even when we sign agreements with trusted allies like Norway 
and Japan, we must consider the example that these agreements 
set for other countries. We must recognize that this sort of 
nuclear trade with Norway could make it harder for us to say no 
to the same kind of nuclear trade with other countries. We 
should be raising global nonproliferation standards, not 
lowering them.
    This agreement comes at a sensitive moment for global 
nonproliferation. In East Asia, both China and Japan have plans 
to construct commercial-scale spent fuel reprocessing 
facilities. If completed, these facilities could produce 
thousands of pounds of weapons-usable material and trigger a 
new plutonium arms race.
    As Secretary Countryman rightly informed this committee in 
March, reprocessing, quote, has little, if any, economic 
justification. And as Secretary Moniz said earlier this year, 
China's plan to construct a reprocessing facility in 
cooperation with the French firm Areva, quote, certainly is not 
a positive in terms of nonproliferation.
    That is why Senator Rubio and I introduced legislation 
earlier this year to condition U.S. nuclear cooperation with 
China. By tightening our control over China's right to 
reprocess U.S.-obligated material, we would reinforce Secretary 
Moniz's message that reprocessing endangers global security.
    Unfortunately, that message is not reflected in this 
proposed nuclear cooperation agreement with Norway. Norway does 
not even have a nuclear power program. Yet, the United States 
is providing Norway with advance consent to transfer our spent 
fuel for reprocessing.
    If reprocessing is economically unjustifiable and 
militarily dangerous, why should any agreement we sign provide 
advance consent to engage in this activity?
    Mr. Chairman, I sincerely hope that this hearing will 
provide the members of this committee the opportunity to 
discuss this issue and to discuss broader issues about the 
risks that agreements like this one can pose to global 
security.
    Thank you, Mr. Chairman.
    Senator Perdue. Thank you, Senator Markey.
    Now we will turn to our witness. Our witness today is the 
Honorable Thomas M. Countryman. He currently serves as the 
Assistant Secretary of State for International Security and 
Nonproliferation. In this capacity, Mr. Countryman leads the 
bureau at the head of the U.S. effort to prevent the spread of 
nuclear, chemical, and biological weapons, their related 
materials and delivery systems.
    Thank you so much for being here again and sharing your 
thoughts and viewpoints with us today.
    We would remind you that your full statement will be 
included in the record, without objection. So if you would 
please keep your remarks to no more than 5 minutes to start, I 
would appreciate it. And I will turn it over to you, Secretary 
Countryman. Thank you.

 STATEMENT OF HON. THOMAS M. COUNTRYMAN, ASSISTANT SECRETARY, 
  BUREAU OF INTERNATIONAL SECURITY AND NONPROLIFERATION, U.S. 
             DEPARTMENT OF STATE, WASHINGTON, D.C.

    Mr. Countryman. Thank you, Mr. Chairman. I want to thank 
you and Senator Markey for taking the time to hold this 
hearing. We take very seriously our obligation to keep you 
fully briefed on nuclear cooperation agreements both at the 
staff level and at the member level, just as I know you take 
very seriously your review of these agreements. So I always 
welcome these opportunities.
    This agreement is straightforward. It contains all of the 
requirements that are in the Atomic Energy Act of the United 
States legislation. It includes the necessary reference to 
additional safeguards under the IAEA, the International Atomic 
Energy Agency. It has a 30-year duration. And as Senator Markey 
has already noted, it has one clause that is not in every 123 
agreement but that is far from unprecedented having to do with 
the retransfer of irradiated nuclear material to the U.K. or 
France. I will be surprised if you find anything surprising in 
this agreement.
    It is straightforward, but it is far from insignificant for 
two reasons.
    First, Norway is an important U.S. ally. Beyond that, I 
would say it would be difficult to find a country with a better 
record as a model citizen of the world than Norway, not only in 
their commitment to the security of Europe as a NATO member, 
but in their generosity in helping to address issues as diverse 
as environmental, developmental, and nonproliferation issues 
around the world.
    Secondly, it is significant because the Halden Research 
Reactor that you mentioned, which is a center for nuclear 
research of benefit not only to the U.S. Government--and 
several U.S. agencies under the Department of Energy are 
partners with Norway--but also for U.S. commercial industry in 
the nuclear field. In this agreement, its primary effect will 
be to facilitate that research.
    For both these reasons, we consider the agreement to be 
important.
    If I may take just a moment to address Senator Markey's 
concern. First, I would note that the advance consent to permit 
transfer of irradiated nuclear material to the U.K. and France 
is not unprecedented. As noted, it is contained in other places 
in agreements with other countries. In the case of Norway, 
there are no power reactors. There is not a significant amount 
of waste generated that it cannot be compared to that of a 
power generation reactor.
    Secondly, the transfer of such material for reprocessing or 
for storage to the U.K. or France means it is transferred to 
our most trusted partners. It does not become available for any 
kind of nuclear weapons use.
    I am happy to go into this in more detail, but I look 
forward to answering these and any other questions you have.
    [Mr. Countryman's prepared statement follows:]


               Prepared Statement of Thomas M. Countryman

    Mr. Chairman and Ranking Member Cardin, good afternoon. It is a 
pleasure to testify before the committee today regarding the 
President's submission of an agreement for peaceful nuclear cooperation 
between the United States and Norway. As you know, Norway is a long 
standing strategic ally and political partner of the United States, and 
this Agreement is an example of the strength of our bilateral 
relationship.
    The United States and Norway have had a strong partnership in the 
field of peaceful nuclear cooperation for more than half a century, and 
the United States is pleased to renew this cooperation with an updated 
123 agreement. The terms of the new U.S.-Norway Agreement strongly 
reaffirm the two governments' shared commitment to nonproliferation as 
the cornerstone of our nuclear cooperation relationship. Norway has a 
strong track record on and has consistently reiterated its commitment 
to nonproliferation. It has been an extremely active partner with the 
United States across a wide breadth of bilateral and multilateral 
activities designed to ensure the implementation of the highest 
standards of nuclear safety, security, and nonproliferation worldwide.
                        description of agreement
    As with all our 123 agreements, this Agreement is first and 
foremost an asset that advances U.S. nonproliferation policy 
objectives. The President's transmittal of the Agreement, and the 
Nuclear Proliferation Assessment Statement that accompanied it, include 
a detailed description of the contents of the Agreement. I will not 
repeat that here, but the Agreement contains all the U.S. 
nonproliferation guaranties required by the Atomic Energy Act and 
common to 123 agreements, including conditions related to International 
Atomic Energy Agency (IAEA) safeguards, peaceful uses assurances, 
physical protection assurances, and U.S. consent rights on storage, 
retransfer, enrichment, and reprocessing of U.S.-obligated nuclear 
material. The agreement establishes the legal framework for the 
transfer of information, material, equipment, and components for 
nuclear research and nuclear power production. It does not permit 
transfers of Restricted Data, sensitive nuclear technology, sensitive 
nuclear facilities or major critical components of such facilities.
    Norway has no nuclear power program, and no current plans for 
establishing one, but the Agreement would facilitate cooperation on 
such a program if Norway's plans change in the future. Norway does have 
an active nuclear research program and the focus of cooperation under 
the proposed agreement is expected to be in the area of nuclear 
research. Its Halden boiling heavy water reactor went online in 1958 
and continues to operate as a multinational research and development 
facility. Operating on low enriched uranium, the reactor is devoted to 
many types of safety research including fuel and cladding development, 
material research, and plant aging and degradation. The United States 
provided the initial heavy water for the Halden reactor, and many U.S. 
companies and organizations have utilized the facilities of the Halden 
Reactor Project, including the U.S. Department of Energy, Oak Ridge 
National Laboratory, and Idaho National Laboratory. Several other 
private firms such as General Electric Global Nuclear Fuel, 
Westinghouse Nuclear, and research institutions such as the Electric 
Power Research Institute have also participated in activities at the 
Halden Reactor Project.
    One feature of the Agreement that is not found in all of our 123 
agreements, although it is also not unusual, is that it provides 
advance, long-term (``programmatic'') consent to Norway for the 
retransfer of irradiated nuclear material (spent fuel) to France, the 
United Kingdom, or other countries for storage or reprocessing subject 
to our consent and that of the recipient. The 123 Agreement would give 
the United States the option to revoke the advance consent if it 
considers it to be required by exceptional circumstances of concern 
from a nonproliferation or security standpoint; for example, if it 
believes that the arrangements cannot be continued without a 
significant increase of the risk of proliferation or without 
jeopardizing national security.
    The Agreement has a term of 30 years, although it can be terminated 
by either party on one year's advance written notice. In the event of 
termination or expiration of the agreement, key nonproliferation 
conditions and controls will continue in effect as long as any 
material, equipment, or component subject to the agreement remains in 
the territory of the party concerned or under its jurisdiction or 
control anywhere, or until such time as the parties agree such items 
are no longer usable for any nuclear activity relevant from the point 
of view of safeguards.
                  norway as a nonproliferation partner
    Norway has a strong nonproliferation record. It is an original 
party to the Treaty on the Non-Proliferation of Nuclear Weapons 
(``NPT''). Its safeguards agreement with the International Atomic 
Energy Agency (``IAEA'') entered into force on March 1, 1972. The 
Additional Protocol to its safeguards agreement entered into force on 
May 16, 2000, and the IAEA has concluded that all nuclear material in 
Norway remains in peaceful uses. Norway has been a vocal proponent for 
universal accession to the Additional Protocol, which grants the IAEA 
expanded safeguards authorities. It is a party to the amended 
Convention on the Physical Protection of Nuclear Material and Nuclear 
Facilities, and has signed and ratified the Comprehensive Test Ban 
Treaty and the International Convention for the Suppression of Acts of 
Nuclear Terrorism. It is also a member of the Nuclear Suppliers Group, 
whose non-legally binding guidelines set forth standards for the 
responsible export of nuclear commodities for peaceful use.
    Norway has also pledged more than one million U.S. dollars to 
support the IAEA's verification activities under the Joint 
Comprehensive Plan of Action (JCPOA), makes frequent contributions to 
the IAEA's Nuclear Security Fund, and is an active participant in the 
Global Initiative to Combat Nuclear Terrorism. Norway contributed $5 
million to the IAEA's low-enriched uranium bank, a mechanism that will 
help prevent proliferation by reducing incentives for countries to 
pursue uranium enrichment. Additionally, in December 2015, it provided 
support valued at approximately $6 million for supply of 60,000 
kilograms of natural uranium (uranium concentrate) and its 
transportation from Kazakhstan to Iran as part of a broader transaction 
related to export of Iran's enriched uranium in accordance with the 
JCPOA.
    Norway is a party to the Biological Weapons Convention and the 
Chemical Weapons Convention. It is also a member of the Conference on 
Disarmament, the Missile Technology Control Regime, and the Wassenaar 
Arrangement, and a participant in the Australia Group.
                               conclusion
    In sum, we believe the nonproliferation and economic benefits of 
this agreement demonstrate that strengthening our nuclear cooperation 
with Norway is in the best interests of the United States. Research 
conducted at the Halden reactor will benefit the United States and 
Norway and advance global nuclear safety, security, and 
nonproliferation objectives. Once it enters into force, this Agreement 
will be a significant achievement for both our governments and provide 
a strong foundation for our shared peaceful nuclear cooperation and 
nonproliferation objectives for decades to come.


    Mr. Chairman and Ranking Member, thank you.
    Senator Perdue. Thank you, Mr. Secretary.
    Let me follow up on that last comment very quickly, if I 
may. This is just my own question. I have got several I want to 
get to here, and we will go back and forth. We have plenty of 
time. So thank you so much for your remarks and for being here 
and for all your hard work in this area. Senator Nunn is a 
friend of mine, and he praises the work that you do and you 
make our world safer. So thank you.
    The transfer you are talking about--there is a coalition 
potential, as I understand it, the trilateral agreement 
possibility. Is there any possibility that other countries that 
this material could be transferred under this potential 
agreement?
    Mr. Countryman. Spent fuel, that is, irradiated nuclear 
material, could be transferred from Norway to another country 
with our consent. We have not given advance consent except in 
the case of transfer to the U.K. and France.
    Senator Perdue. Great.
    As you mentioned, the current agreement lapsed. The new 
agreement was transmitted in June, and now we are up against a 
clock it looks like in terms of the 90-day continuous days in 
session, as I understand it.
    I have got several questions around that agreement.
    A, why did it take 2 years to renegotiate?
    Two, how have we been operating in the 2 years while we 
have been negotiating?
    Three, what are the economic and scientific implications of 
that 2-year period?
    And then lastly, how would a new agreement benefit both the 
U.S. and its security issues but also international trade and 
U.S. interests there?
    Mr. Countryman. As you were so kind to note, I have been up 
here to discuss several 123 agreements, ones that were far more 
complex and time-consuming to negotiate than the agreement with 
Norway. It was, quite frankly, a low priority and neither the 
Norwegian Government nor the U.S. institutions that make use of 
the Halden Research Reactor identified it to us as an urgent 
priority. As soon as they did, we commenced negotiations. They 
were completed faster than with any other country. But you are 
correct that they were not completed in time to have the 
agreement go into effect by normal procedures before the end of 
this year.
    This does not have a significant effect either on the 
reactor or upon U.S. companies for two reasons.
    One, the primary export that we are talking about from the 
United States is research material, that is, fuel assembly 
plates, for example, that a private U.S. civil nuclear company 
would want to test in this reactor.
    Secondly, we have the alternative mechanism, which we have 
employed in other cases, primarily involving research reactors 
where we can do a project supply agreement through the 
International Atomic Energy Agency, and the same safeguards and 
controls that are contained in our 123 agreement with that 
agency are applied directly to the export.
    So while I would have been happier to have finished this 
sooner, I do not believe it will have a significant effect upon 
our cooperation or upon the success of the research efforts 
that U.S. agencies and U.S. companies undertake with the help 
of Norway.
    Senator Perdue. Can we go back to the agreement and what it 
says about transferring for storage or reprocessing? The U.K. 
and France--those are identified in here. But other countries 
or destinations as may be agreed upon in writing is also--I 
think that is the specific language. Does Norway have plans to 
transfer spent fuel for storage or reprocessing? If not, what 
is the purpose of this provision? I am just curious.
    Mr. Countryman. It has no plans that I am aware of. I think 
that the purpose of the provision is to make explicit that they 
will not transfer to another country without our consent. I 
would not want to leave it ambiguous that if they went 
somewhere other than the U.K. and France, they would not need 
our consent.
    Senator Perdue. Russia is a member of this consortium I 
just mentioned relative to the Halden research facility. I am 
not clear on how many countries are in that consortium. But 
would the administration support shipping spent fuel to Russia 
for reprocessing or China, for that matter?
    Mr. Countryman. First, I would note that all research 
activities that occur at the Halden Research Reactor are 
peaceful in nature. They are in full compliance with the 
International Atomic Agency's safeguards, and that includes any 
Russian or another country's research projects that occur 
there.
    Secondly, I am not aware of any intent or any reason for 
Norway to seek to send irradiated nuclear material to Russia or 
China when they have a satisfactory arrangement for these small 
quantities with the United Kingdom and France.
    Senator Perdue. Thank you. I have got other questions, but 
I will defer to the ranking member at this point. Senator 
Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    Thank you again for testifying before our committee.
    Again, I want to start by returning to the issue I raised 
in my opening remarks, which is the danger of spent fuel 
reprocessing. As you testified in March, reprocessing makes no 
financial sense, but it is not only economically unjustifiable, 
it is also dangerous. And that is particularly true in East 
Asia where additional plutonium stockpiling would destabilize 
the region and increase the risk of diplomatic and military 
confrontation.
    What concerns me about this proposed agreement is not that 
Norway could acquire nuclear weapons. Norway has unambiguously 
renounced nuclear weapons. And it is deeply embedded in global 
nonproliferation institutions.
    What concerns me is that by allowing Norway to export our 
spent nuclear fuel to other countries for reprocessing, we are 
as a country promoting a technology that is bad for 
nonproliferation. That makes it even more difficult for us to 
persuade other countries, including those in East Asia and the 
Middle East, not to pursue this technology or to build large-
scale facilities that use it. And it makes it hard for us to 
discourage other nuclear suppliers like France from 
proliferating reprocessing technology.
    So my first question to you, Mr. Secretary, is do you agree 
that discouraging spent fuel reprocessing would strengthen the 
global nonproliferation regime?
    Mr. Countryman. Yes. If I might make a couple of comments. 
I hope you can accept that I agree with many of your premises 
but not all of your conclusions.
    First, I am previously on the record in this room in saying 
that reprocessing, that is, the production of plutonium, has 
little economic justification and it raises serious concerns 
about nonproliferation. That remains our policy. It remains our 
policy to discourage additional countries from developing 
enrichment and reprocessing technology when there is no 
economic or security need to do so and it only enhances 
questions of both nuclear security and proliferation.
    I do not agree that this agreement in any way encourages 
Norway to pursue such technology. There is no intent of Norway 
that I have ever heard of to develop an indigenous enrichment 
or reprocessing capability. The fact is that we do trust the 
United Kingdom and France because of a long record of operating 
transparently and under IAEA safeguards, that there is no 
possibility that the minute quantities of spent fuel that might 
be transferred from Norway have any risk of ending up as a 
proliferation threat.
    Senator Markey. And again, it is not about Norway. It is 
about an example which is set. It is about a precedent that is 
set. It is about further momentum which is created towards a 
reprocessing world that ultimately increases the likelihood of 
these nuclear materials falling into the hands of those who 
would use them for purposes that our nonproliferation policy is 
intended to stop.
    So if we take the case of France, which will be allowed to 
receive the Norway nuclear materials, right now both in China 
and Japan reprocessing facilities are being constructed with 
the help of France. So from my perspective, we should be trying 
to discourage Japan and China. The French are helping to 
construct reprocessing facilities in China.
    By saying that we give permission for Norway to take our 
nuclear materials to France, we are just sending a dual message 
that would be hard to miss by the French that with a little bit 
of a wink here, it is all fine, we appreciate your business, 
and that we are going to actually, I guess at the end of this 
session of Congress, somehow or other urgently have to pass a 
123 agreement.
    And so from my perspective, I think that, again, it raises 
these longer-term issues where nuclear nonproliferation is 
supposed to be our highest goal, trumping all other issues 
because of what the consequences are if we ever face that day. 
But simultaneously we just piece by piece kind of chip away at 
it and then not expect other countries in the world to just 
wonder about the depth of our sincerity and especially when you 
are partnering with France that sees this as an area of 
enormous commercial benefit for them even though we have 
already established that it is not economic as a technology.
    So that is the core of my problem, Mr. Secretary. It always 
has been and it continues to be where we kind of preach 
temperance but from a bar stool, saying do not do it, but yet 
here, once again, we are going to allow Norway to take our 
materials and take it to France which is itself a country that 
does believe in this reprocessing technology. So at the end of 
the day, we wind up being part of this with that wink and nod 
to this ultimately very dangerous technology that some day very 
well could come back to haunt the whole planet.
    Mr. Countryman. If I may, I would first note that China, of 
course, has long had a capacity for reprocessing. The project 
that you referred to to construct a large civilian reprocessing 
plant, as opposed to their military reprocessing plants, has 
been on the books for a number of years. It has not been 
concluded. Construction has not begun. It remains an intent 
rather than a construction project.
    Senator Markey. Can I just say the same is true for Norway?
    Mr. Countryman. No. I do not agree at all.
    Senator Markey. Well, they do not have an intent to do it 
right now you said. Right?
    Mr. Countryman. They do not have an intent to do it. They 
do not have a capability to do it. They do not have a need to 
do it. They do not have permission to involve U.S. technology 
in order to do it. It is a completely different situation.
    In terms of what encourages or not, as I said, we do not 
see a need for any new country to develop enrichment or 
reprocessing technology. If we were to say to countries we do 
not want you to have enrichment technology and, in fact, we do 
not want you to use the enrichment capabilities that already 
exist in other countries, it would be a self-defeating 
argument. And the same is true for reprocessing, that if it 
would not be effective to say to any country reprocessing is so 
horrible that you cannot use existing safeguarded facilities in 
order to reduce the level of waste that must be stored.
    Finally, I will do my best to get you an accurate number on 
what quantity of irradiated fuel is actually produced annually 
by this reactor and where it goes to. I apologize. I do not 
have that today at my fingertips.
    Senator Markey. That is fine.
    Now, in your view, do additional advance consent agreements 
make it easier or harder for the United States to discourage 
other countries from engaging in spent fuel reprocessing?
    Mr. Countryman. I would have to know which country you are 
talking about and what size of program we are talking about.
    Senator Markey. My answer would be, of course, it makes it 
harder to discourage other countries, the deeper we get 
involved in the industry ourselves even indirectly, as you are 
saying here.
    How does granting advance consent affect our ability to 
discourage nuclear suppliers from signing their own agreements 
that allow for reprocessing?
    Mr. Countryman. Sorry. Could you say that once more?
    Senator Markey. How does granting advance consent affect 
our ability to discourage nuclear suppliers from signing their 
own agreements that allow for reprocessing?
    Mr. Countryman. Well, I think a couple of things got mixed 
in that question. Again, there is nothing in this agreement 
that says Norway has advance consent to build a reprocessing 
facility. And mixing that with advance consent to build 
reprocessing, I do not understand the connection, honestly.
    Senator Markey. Well, why does nuclear research with Norway 
require reprocessing?
    Mr. Countryman. I am not aware that it does.
    Senator Markey. Why are we considering legislation?
    Mr. Countryman. First, the nuclear research--and again, I 
will do my best to get you a more detailed description of the 
research that goes on at Halden, but it is a wide range of 
research, just as at U.S. nuclear facilities as well. And the 
research includes important data about health and safety issues 
and about the--what do you call it--endurance or wear issues 
for nuclear components. Those are essential for the nuclear 
industry.
    I am not aware that they produce large quantities of waste. 
In the United States, most of any spent material from a 
research reactor is likely to go to dry cask storage rather 
than to reprocessing. I will find out for you if Norway has 
done anything that requires reprocessing. I will look into it.
    Senator Markey. And I just apologize. I will just finish, 
if you do not mind.
    Are there other alternatives to reprocessing that we could 
suggest to the Norwegians, including the United States playing 
a role in the storage of that spent fuel?
    Mr. Countryman. I certainly have no authority to offer to 
other countries storage of their spent fuel in the United 
States.
    Senator Markey. Well, again, I would say that we are giving 
them permission to reprocess it in other countries. Providing 
an alternative to avoid the reprocessing option, which has 
proliferation implications, and offering other alternatives, it 
seems to me, should be explored as a way of solving Norway's 
problem without actually yet creating another exception to the 
nonproliferation policy.
    Mr. Countryman. Let me make a general statement that 
probably needs to be more specific, which is U.S. legislation 
would not allow the executive branch to offer other countries 
the option to store spent fuel in the United States.
    Senator Markey. Would it prohibit us helping Norway to 
store it in their own country?
    Mr. Countryman. No.
    Senator Markey. No. So would that be a safe alternative?
    Mr. Countryman. Yes.
    Senator Markey. Yes. So we are trying to encourage people, 
I would think, to not act in a way that is uneconomic, which is 
reprocessing, to also act in a way which can provide a safe 
alternative, which I think is available, and to not further go 
down this pathway of passing 123 agreements, which 
unfortunately send the wrong signal to the rest of the world. 
That is what my conclusion would be.
    Thank you, Mr. Chairman.
    Senator Perdue. Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you, Secretary Countryman, for being here. I 
appreciate the opportunity to visit with you again and multiple 
times before the committee over the past year, 2 years. So 
thank you.
    I am wondering if I could shift topics from the current 
discussion right now, if you do not mind, to North Korea, if we 
could. In light of the recent nuclear detonation again in North 
Korea, could you perhaps explain or tell the committee what you 
see in terms of the North Korean nuclear program developments 
thus far? Do you believe this is fully indigenized at this 
point? Have they made advancements? I would appreciate the 
opportunity to receive the update.
    Mr. Countryman. What if I said I did not want to talk 
about--[Laughter.]
    Mr. Countryman. All right. I am happy to, sir.
    First, in terms of a description of the North Korean 
nuclear program, we would be happy to get the best analysts 
from various agencies here for a closed briefing who could give 
you far better detail than I could.
    What I would say is clearly every time you do a nuclear 
test, you advance in knowledge. It is why the United States did 
several hundred nuclear tests. What exactly they have learned 
from the latest nuclear test, again I would have to get experts 
here to talk to you about that.
    It is primarily an indigenous program. It does rely upon 
supply of some material from outside North Korea, and that is 
why my bureau, in cooperation with a number of other government 
agencies, work so hard to aggravate at every turn North Korean 
efforts at procurement or at earning hard currency to fund such 
procurement.
    The fact remains that the United States has not, will not 
accept North Korea as a nuclear state.
    Senator Gardner. There is some material outside of North 
Korea. Where is the primary source of that outside material 
coming from?
    Mr. Countryman. I think primarily from private dealers in 
China and Russia but not limited to those two states.
    Senator Gardner. And what type of material are we talking 
about, if you can here?
    Mr. Countryman. I would rather do that in a classified 
briefing.
    Senator Gardner. Very good.
    And in terms of China's provisions, these companies, these 
private sources in China, are these front businesses, North 
Korean front businesses, or are they actual China businesses 
that are being allowed to move forward or just illicit actors 
doing illicit things?
    Mr. Countryman. I think it is all of the above. North Korea 
runs an extensive network of front companies not only in China 
but in other countries around the world. Their business 
contacts extend to a number of non-state-owned companies in 
China, as well as in other countries. And those companies may 
or may not be aware that they are dealing with a North Korean 
entity.
    Senator Gardner. And these sources that are providing 
material to North Korea for the nuclear program in China--do 
you know if they are currently under investigation under the 
North Korea Sanctions Enhancement Act that we passed?
    Mr. Countryman. I am sorry. Which entities exactly?
    Senator Gardner. The entities that are providing from China 
the nuclear material or the nuclear-related material.
    Mr. Countryman. The United States has previously designated 
North Korean front companies in various countries and will 
continue to do so as the evidence warrants.
    In addition, we have a regular and I think a productive 
dialogue with the Chinese Government about more effective 
enforcement of sanctions resolutions.
    Senator Gardner. In terms of Pakistan and North Korea, we 
had a hearing last week/earlier this week on Pakistan, some 
discussion about past activities between the two nations in 
proliferation and the A.Q. Khan network. Any indication that 
that relationship exists today at a nuclear level?
    Mr. Countryman. I do not have any.
    Senator Gardner. Thank you, Mr. Chairman.
    Senator Perdue. Thank you.
    I want to go back to the Norway deal just a minute. You 
know, with the clock being what it is and the 90-day continuous 
session situation, is the administration considering a 
trilateral supply agreement between U.S., Norway, and IAEA? If 
they are, why would they consider that versus resubmitting a 
123 agreement in the next Congress?
    The second thing is would Norway approve of that?
    And could a trilateral agreement be reached in time for 
approval in September or at the September or November board 
meeting of the IAEA?
    And would you predict that this agreement would be approved 
by the IAEA board?
    And lastly, if a trilateral agreement were accomplished, 
what would be our role? Would the Senate be consulted about 
that?
    Mr. Countryman. Okay. Several questions there.
    Senator Perdue. Right.
    Mr. Countryman. In what you refer to as a trilateral, I 
call a PSA, a project supply agreement. As I noted, we have 
used this mechanism previously because it allows us to take the 
very strong 123 agreement we have with the International Atomic 
Energy Agency and transfer through the IAEA the material in 
question with all the controls that are contained in that 
agreement.
    Senator Perdue. I am sorry to interrupt. Is there any 
difference in the quantity and the procedures of transfer under 
a 123 versus a trilateral?
    Mr. Countryman. We prefer to do it under a 123. It is more 
straightforward. You do not need to involve the IAEA, and you 
do not need the approval of the Board of Governors of the IAEA. 
And that is why we do 123's.
    There is a meeting of the Board of Governors next week. The 
project supply agreement will not be ready to submit to them. I 
expect it will be submitted, and I see no obstacle to it being 
approved at a Board of Governors meeting in November. Whenever 
we employ a project and supply agreement, we brief 
congressional staff on this, as we do on developments under the 
123.
    Senator Perdue. Sorry to interrupt again. If we were to do 
that, if the administration were to do that, would that 
preclude then a 123 being negotiated and presented to the next 
Congress after the first of the year?
    Mr. Countryman. No.
    Senator Perdue. Would that be the current administration's 
intent? In other words, what I am asking is we have had 2 years 
of lapse of this. We have not done a PSA, or a trilateral, in 
that 2 years. Why rush into that now relative to the fact that 
we are a couple months away from a new administration?
    Mr. Countryman. Honestly, I am not trying to rush anybody.
    Senator Perdue. Well, I apologize for use of the word 
rush.''
    Mr. Countryman. No, no, no.
    Senator Perdue. But we are in a 90-day period or a period 
where we really do not have time to do the normal oversight of 
this agreement. So that brings into play the need possibly to 
do a PSA, as you say.
    Mr. Countryman. Yes.
    Why did we submit it now instead of waiting until next 
year? First, because it was ready.
    Senator Perdue. No, that is not my question. My question is 
whether you go to a PSA now versus this agreement. I see the 
123 agreement. Then the question is, as I understand it, the 
administration is considering a trilateral, or a PSA agreement, 
in the interim. And I have two questions. One is would that 
preclude us from doing a 123? And the second question is why do 
a PSA now at all.
    Mr. Countryman. Okay. On the first question, absolutely the 
PSA does not preclude the need for the 123.
    On the second question, the reason to do it now is because 
of specific research projects that U.S. private companies have 
made arrangements with the research reactor in Norway. What we 
would need to export under the PSA is not a reactor or a reload 
of the fuel. It is actually the research material that is going 
to be tested in the reactor.
    In general, it should be possible to predict those things 
longer in advance, and that is why I would have been happier if 
we had finished the 123 earlier this year. But it is a need 
that will arise not necessarily on a regular, predictable 
basis, but will arise more than once over the next 30 years. So 
the 123 that allows the direct transfer of research materials 
without going through the IAEA is obviously preferable.
    Senator Perdue. Have they transferred material during the 
2-year period of the lapsed agreement?
    Mr. Countryman. Not to my knowledge. We have not done a 
PSA, no.
    Senator Perdue. Thank you.
    Mr. Countryman. And that gives you an indication of how 
frequently we need it.
    Senator Perdue. Right. That is why I was asking. So there 
is a need now. That is the purpose of the potential PSA. I 
understand.
    Would you be willing to provide an assessment of Norway's 
improvements on their export controls? And are you comfortable 
with that, given some of their history in recent times?
    Mr. Countryman. The short answer is, yes, I am comfortable 
with the professionalism and the diligence of Norwegian export 
controls. There was one particular case that you may be aware 
of that I will not go into detail here that we raised with the 
Norwegian Government and the answer was fully satisfactory both 
in terms of the action taken in that particular case and in 
reviewing their procedures. So I have no concerns about their 
capabilities.
    Senator Perdue. Since Russia is a member of the Halden 
research consortium, can you tell us a little bit about how 
they interact in that consortium and give us some comfort that 
there is no risk to U.S. technology in that relationship?
    Mr. Countryman. I did not bring any research physicists 
with me.
    Let me get you a more precise answer. Let me give you an 
unscientific answer, but I think it has the essence of the 
situation. And that is, in a research reactor, you normally are 
doing one or possibly two or three projects at a time. If there 
is a project that is sponsored by an American company, they are 
the ones using the reactor in cooperation with the Norwegian 
authorities. If it is the Department of Energy that is 
researching a particular issue, they are the ones involved. If 
it is a Russian research center that is doing it, they do their 
thing. Each country that contracts for use of the reactor for a 
research project manages their own project.
    Senator Perdue. Thank you.
    Mr. Countryman. But I will give you an answer with longer 
words.
    Senator Perdue. Okay. Thank you.
    One last quick question before I turn it back over to the 
ranking member. Let us move to Norway's role in the JCPOA, if 
we could briefly.
    You mentioned in your testimony that Norway has pledged 
over $1 million to support the IAEA's verification activities 
under the JCPOA. You also mentioned the Norway provided support 
to swap natural uranium for Iran's enriched uranium in 
accordance with the JCPOA in December of 2015.
    Given the earlier contribution to the implementation of 
JCPOA, how else might Norway participate in the implementation 
or otherwise reap benefits of the JCPOA?
    Mr. Countryman. I am not aware that Norway is looking to 
reap benefits from the JCPOA. I think, rather, it has in 
keeping with their generosity to all kinds of important causes 
around the world--the fact is that they contribute a higher 
percentage of their GDP to development goals than just about 
any country on earth. Maybe it is the highest--they saw that 
there was a need for funding in order to complete a 
transportation process that would make it possible for us to 
achieve our goal of moving enriched uranium out of Iran and 
allow the Iranians to reach implementation day. And as I know 
from experience on other such projects, the Norwegians can 
approve funding projects such as that far faster than Brussels 
or Washington or any other capital you can name.
    Senator Perdue. That is a low bar. [Laughter.]
    Mr. Countryman. Well, I meant to make it more impressive. 
[Laughter.]
    Senator Perdue. Understood. Thank you.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    So the need for the joint research between the United 
States and Norway at Halden in Norway appears to be the main 
reason for a new 123 agreement. And our projects at Halden 
include a Department of Energy-run program for testing accident 
tolerant nuclear fuel, testing of aging reactor components and 
other safety research by NRC, irradiation testing of advanced 
nuclear fuels developed by Lightbridge Corporation of McLean, 
Virginia, and the Nuclear Energy Institute, the lobbying arm of 
the nuclear power industry in the U.S., has argued that without 
a 123 agreement, U.S. access to Halden Research Reactor will be 
severely limited.
    So tell us a little bit about what this company Lightbridge 
will be doing in Norway, please.
    Mr. Countryman. I will check and I will get you additional 
details, but my understanding is that they are facilitating 
testing of fuel assembly plates. Am I off? Yes. Lightbridge has 
submitted a request to the NRC, the Nuclear Regulatory 
Commission, here to review a fuel design developed for U.S. 
utilities, that is, use in the U.S. nuclear fleet, in 
anticipation of an application for the use of that fuel 
assembly in a U.S. pressurized water reactor in the near 
future.
    Senator Markey. Right. And so I guess my question is why 
can they not do that in the United States. Why do we have to 
pass a 123 agreement that blows another hole through our 
nonproliferation policy when it is the--did you say it is the 
Nuclear Energy Institute, the Edison Electric Institute? In 
other words, the domestic nuclear power industry is the 
wealthiest industry in the United States, and they have 
research capacity all over this country. Why can they not just 
do it here so that we do not have to, in the Senate Foreign 
Relations Committee, pass a 123 agreement to allow them to do 
it in Norway?
    I guess what you are saying is they are doing it for U.S. 
military and civilian nuclear power plants. Is that what you 
are saying?
    Mr. Countryman. It is research that is related to the 
effectiveness and safety of fuel assemblies for use in civilian 
reactors----
    Senator Markey. Here.
    Mr. Countryman [continuing.] In the U.S.
    Senator Markey. And we do not have that capacity?
    Mr. Countryman. I do not know.
    Senator Markey. I think we do. So I do not understand why, 
again, we would move to our nonproliferation policy as a 
solution for a private sector problem that is, from the 
definition of what they are going to be doing with it, strictly 
contained within the United States.
    Mr. Countryman. I would line up with you if I thought that 
this agreement in any way undermined our strong stand on 
nonproliferation, but we will continue to disagree.
    Senator Markey. Again, that is a philosophical 
disagreement. Every time we do it, there should be a good 
reason for it. That is my view. We just should not be doing 
this because a company just finds it convenient when you could 
probably find a capacity in the United States to do the same 
thing. There is a vast industry in America doing nuclear 
reactor research work.
    And the Nuclear Regulatory Commission is arguing that they 
have to go to Sweden in order to test aging reactor components 
and they cannot do that here in the United States? We do not 
have the capacity? I mean, Norway does not have a nuclear 
domestic industry. We have 100 nuclear power plants here in 
America, and we do not have a capacity here to test aging 
nuclear components?
    Mr. Countryman. Normally you do not run tests in operating 
nuclear reactors. The Soviets tried that in 1986 in Chernobyl. 
It did not end happily.
    The Nuclear Regulatory Commission does not enter into it. 
It is not their decision that Lightbridge ought to do the 
testing in Norway or in another location. It is, I presume, a 
combination of a commercial and a scientific decision.
    Senator Markey. Right. Well, again, the Russians in 
Chernobyl did not have a containment dome. So they did not have 
safety requirements in Russia at that time. So in the United 
States, we have a huge Nuclear Regulatory Commission safety 
infrastructure in place in order to actually help countries 
like Russia or other countries that might wind up with a 
nuclear power plant that has gone awry. So we are infinitely 
more sophisticated than the Russians are in this.
    You know, the question again--I keep coming back to this--
is why does helping Lightbridge require advance prior consent 
of the United States Government. That is a big step to take to 
give a country the ability to transfer these nuclear materials. 
Would any of these materials be American materials that we are 
potentially talking about?
    Mr. Countryman. I will find out for you.
    Senator Markey. I think we have to know that. We are doing 
it for a private sector reason. I mean, the urgency here comes 
from it sounds to me like the Nuclear Energy Institute, this 
company Lightbridge. They are all up and active and saying, you 
know, Senate Foreign Relations Committee, please process this 
thing. And I understand they are probably sitting out in the 
room right now. There is probably someone from Lightbridge or 
the Nuclear Energy Institute sitting out here. But they should 
be the ones testifying why they cannot do it here domestically. 
You know, it should not be you. They should be the ones making 
the case for a 123 agreement, not you. It is a private sector-
driven piece of legislation at the very end of the session.
    Mr. Countryman. No, sir. It is not a private sector-driven 
piece of legislation. It is one that the Government of Norway 
believes is important and that we believe is important. It is 
an agreement that promotes scientific cooperation that has been 
beneficial to both countries for 60 years that has both 
scientific and commercial applications. If I feel a lot better 
about fuel assembly plates that have been tested other than in 
an operating civilian reactor, the safety implications are 
great. The commercial implications are important. And the 
Department of Energy--I am sorry they were not able to be here 
today--would tell you as well in far more clarity than I could 
what are the scientific benefits that we get from this 
agreement.
    I do not feel that including the same provision on advance 
consent for retransfer to the U.K. and France, the same 
provision that we had in the 1984 agreement with Norway, led in 
any way to an increased risk of proliferation. If I thought it 
did, I would be making a very different argument. But I just do 
not see it.
    Senator Markey. Well, you know, from my perspective, it is 
very disturbing to find that the United States does not have 
the indigenous capacity to test aging components.
    Mr. Countryman. That is not what I said.
    Senator Markey. Excuse me?
    Mr. Countryman. I did not say that we do not have the 
capacity.
    Senator Markey. Well, then that our capacity would then be 
used in order to test these aging components in our nuclear 
power plants without the need for us to have a 123 agreement 
with Norway. So that is my point.
    If we are at this point where we need Norway with no 
nuclear to help a country that has 100 nuclear power plants and 
we have been doing it for 70 years to test aging components in 
our nuclear power plants, you are right. We are more like 
Russia. We are a lot like Russia. The nuclear industry in 
America is a lot like Russia that way because honestly nuclear 
power plants are like human beings. You know, they run down. 
Their parts internally start to wear out, which is why they 
have to replace so many parts inside of nuclear power plants.
    But to think from my perspective that Norway has to do it 
for us and that we have to have a 123 agreement to have Norway 
help us to me, as a justification for this, is pretty low. It 
is pretty low. And I just say that quite clearly unless we just 
want to keep good relations with them, which is fine, and 
Norway wants to have a partnership with this company. That is 
fine. Norway wants to have a partnership with the Nuclear 
Energy Institute in the United States. That is fine.
    But from my perspective, I am shocked that we do not have 
the indigenous capacity in the United States to do the testing 
of aging nuclear parts in a nuclear power plant. I have 
Seabrook serving my constituents, the Pilgrim nuclear power 
plant. To think that we are dependent upon the Norwegians to do 
this research to make sure that now these aging plants do not 
endanger the public is a little bit frightening. I did not come 
to this hearing really understanding why we are doing this, but 
it is becoming more clear to me what is going on here.
    And I guess I would say, again, as an alternative to 
reprocessing, I would prefer dry cask storage, some form of 
storage for our own materials. We have learned how to do that 
long, long, long ago.
    The Norwegians actually have a global seed vault on the 
island of Spitsbergen. It is very secure. All the seeds of the 
world. Maybe we could put a couple of spent fuel casks there 
and we would not have to reprocess it. It is such a small 
amount, it sounds like, that we would not have to do this kind 
of a change in the law.
    But this linkage between the Nuclear Energy Institute and 
this company, which I never heard of until today, Lightbridge 
and its linkage to this, I think it requires its own hearing. 
Who are these people? And what do they want? And if there is 
anyone from Lightbridge here or Edison Electric Institute--is 
there anyone here from Edison Electric Institute by any chance? 
Anyone here? Okay. Well, maybe that would be a good hearing for 
us to have so that we can discuss why we are making this 
exception.
    Thank you, Mr. Chairman.
    Mr. Countryman. If I might, first I just want to make clear 
for the record that at no point did I compare the United States 
nuclear industry to the Russian nuclear industry.
    Secondly, I do not believe I said anything that would lead 
the conclusion that the United States has no research reactors 
or is incapable of doing the same kind of research here. That 
is not something either you or I know.
    Senator Markey. I think they do have the capacity. I think 
they do. That is why it is called the Nuclear Energy Institute. 
They pay for this vast amount of research that is done for the 
entire industry, and I think they have the capacity.
    Mr. Countryman. Fine.
    I strongly disagree that the agreement is intended only for 
one company or for one research project. I would be very happy 
to come back with a 90-minute presentation about all the 
research that has been done at this reactor.
    I do not believe that it is in the United States' interest 
to pursue an autarchic policy of avoiding scientific and 
technical cooperation in the civilian nuclear field. I think 
that we have reliable, responsible partners, and Norway is at 
the top of the list.
    Senator Markey. If I just may add, it is not that--I guess 
I would use the world ``apocalyptic,'' not--what is the word 
you used?
    Mr. Countryman. Autarchic.
    Senator Markey. Autarchic. ``Autarchic'' is a good word.
    But my side of the argument is apocalyptic. You know, why 
do we continue to take baby steps towards that moment in time, 
if it is unnecessary? So I think that justification, that 
argument just has to be made.
    So thank you, Mr. Chairman.
    Senator Perdue. Thank you, Senator Markey.
    I would like to look at what is coming. I think we have 
undressed this one pretty well today.
    Can you give us an update on the ongoing negotiations with 
Saudi Arabia and Jordan and their 123 agreements? What are the 
major issues on those two, briefly?
    And then lastly, have rights that have been granted to 
Iran, specifically enrichment rights, under the JCPOA come into 
play with these conversations with either Jordan or Saudi 
Arabia?
    Mr. Countryman. First, for both Jordan and Saudi Arabia, I 
would say that we continue to be in discussions on this issue 
but not in negotiations. We are not working on text at the 
moment.
    The wonderful thing about discussions as opposed to 
negotiations is that all kinds of issues come up, including----
    Senator Perdue. For the record, I should say--I just want 
to make clear for the record we do not have an existing 123 
with either of these countries today. Is that correct?
    Mr. Countryman. That is correct.
    When you have discussions, all kinds of questions can come 
up, including their views of the Joint Comprehensive Program of 
Action, of what Iran is doing, of what the U.S. should do in 
response. It can be difficult to get down to the actual 
business of putting in the technical requirements that need to 
be there.
    It remains the fact that the JCPOA is not a 123 agreement. 
The JCPOA does not create civilian nuclear cooperation between 
the United States and Iran. And I think trying to transfer 
clauses or arguments from one agreement to an agreement that 
has a totally different purpose is not productive. That does 
not mean it is not a frequent subject of rhetoric.
    Senator Perdue. Have the Saudis brought it up specifically? 
And would the administration be receptive to acquiescing on 
that?
    Mr. Countryman. To having them bring it up?
    Senator Perdue. No. To giving them the right or negotiating 
the right to allow them to enrich.
    Mr. Countryman. No.
    Senator Perdue. The administration would not be supportive 
of that.
    Mr. Countryman. There is no need.
    Senator Perdue. What about Jordan? Is that progressing as 
well? And what is the anticipated timeline of either of these? 
Is anything anticipated there?
    Mr. Countryman. Nothing is anticipated in the immediate 
future.
    Senator Perdue. Okay. Thank you very much. That concludes 
my questions. Do you have follow-up?
    Senator Markey. Yes, thank you, Mr. Chairman.
    So, again, I would just conclude by saying that we have our 
own research reactors in the United States. We have our own 
brilliant scientists here in the United States. The Edison 
Electric Institute has its own vast research capacity here in 
the United States. We can disagree about the cost of advance 
consent.
    We do not know the benefits or the need for it. We do not 
have the answers to those questions yet. Why do we need to do 
this? What are the benefits of us doing this? So we still have 
not laid that out yet for who they are or what those benefits 
are and why we have to act so soon without having a more 
comprehensive understanding of why we are doing this except 
that we could.
    But I just think that that case should be made and why that 
domestic capacity does not exist for us to be able to do it if 
an exception has to be made and a 123 agreement has to be done. 
There must be a compelling reason for this and we should hear 
that reason and we should hear about the deficiencies in the 
U.S. infrastructure to do that kind of nuclear research 
capacity here, especially on a commercial level because that 
seems to be most of what this is about. And I would like to 
hear that because of this direct correlation between what we 
are trying to preach here and what we could perhaps avoid ever 
having to give as permission to Norway if we could just solve 
the problem here domestically.
    So I think it is an energy issue first and a research 
issue, and if there is some capacity that Norway has that we do 
not have, I would like to hear it. If they have scientists that 
have greater capacity than American scientists, I would like 
someone to tell us that. If their facility is more 
sophisticated in Norway than any we have in the United States, 
I would like to hear that as well. That is just the other 
argument made and I think that is the precondition to us 
understanding why a 123 agreement should be passed.
    So I thank you, Mr. Chairman, very much, and I thank you, 
Mr. Countryman, as usual. You know, you are the man.
    Mr. Countryman. Two quick comments. Just to be clear, I am 
not demanding, rushing, pushing, encouraging either body to 
take action on this. Take the time you want. If we have not 
answered your questions well enough, as I said, we will come 
back with a more detailed briefing.
    I particularly make that offer because I feel that I have 
not served you well today because I do not have the specific 
answers to your questions about quantities. It is not hard to 
find out what has happened to the small amounts of spent fuel 
that have come out of that reactor over the last 50 years. I 
will find that out. We can do this again at your convenience. 
And I thank you.
    Senator Markey. Thank you, sir.
    Senator Perdue. It would be nice to put that in 
perspective, but I will remind us all that there is no quantity 
too small to pay attention to in this area, for sure, as you 
well said.
    Thank you so much again. And I would ask you to do what you 
have always done. You have been very gracious and helpful in 
responding to these open issues. Thank you for that.
    And for the information of members, the record will remain 
open until close of business Monday, including for members to 
submit questions for the record.
    Again, thank you so much for your work. Thank you for being 
here today.
    With that, we are adjourned.
    [Whereupon, at 3:22 p.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record


Responses to Questions for the Record Submitted to Assistant Secretary 
              Thomas M. Countryman by Senator Marco Rubio


    Question 1.  The previous section 123 agreement with Norway expired 
over two years ago. Why did it take two years to renegotiate and 
transmit to Congress?

    Answer. When the 1984 U.S.-Norway 123 Agreement was on the verge of 
expiration in 2014, neither U.S. industry nor the Government of Norway 
expressed a strong desire to conclude a new agreement. Since that time, 
we have received multiple requests from the U.S. nuclear industry for 
the reestablishment of a legal foundation to facilitate exports to 
Norway, so we have taken steps to put in place a new agreement.


    Question 2.  If the clock runs out on the review period before the 
end of this Congress, why would the administration choose to conclude a 
trilateral supply agreement with the IAEA instead of waiting to 
resubmit the agreement to the next Congress? Does Norway approve of 
this option?

    Answer. If we are required to resubmit the Norway 123 Agreement in 
the 115th Congress, we may not receive an adequate number of days of 
review to enter the agreement into force until the spring or summer of 
2017. At least one U.S. nuclear supplier has indicated it wishes to 
send nuclear material for testing purposes to Norway's Halden reactor 
in early 2017. Accordingly, a U.S.-Norway-International Atomic Energy 
Agency Project & Supply Agreement is seen as a stop gap measure to 
allow this early 2017 shipment to occur until the 123 agreement may be 
entered into force. Norway supports the establishment of the Project & 
Supply Agreement.


    Question 3.  Please provide an update on other pending 123 
agreements the administration is now negotiating.

    Answer. The United States continues to be in active 123 agreement 
negotiations with both Saudi Arabia and Jordan. The United States has 
also conducted one round of 123 agreement negotiations with Mexico in 
September. The negotiations made significant progress and we are 
hopeful to complete negotiations before the end of the year.


                               __________

Responses to Questions for the Record Submitted to Assistant Secretary 
             Thomas M. Countryman by Senator Edward Markey


    Question 1.  Secretary Countryman, unlike the previous 123 
agreement between Norway and the United States, the proposed new 
agreement prohibits enrichment of U.S.-obligated material without our 
consent. However, like the previous agreement, the new agreement 
provides Norway with advance consent to retransfer U.S.-obligated spent 
fuel to the U.K. or France for reprocessing.


  <diamond> During our negotiations with Norway, did the United States 
        seek to remove the provision allowing for advance consent? If 
        not, why not? If yes, why was the provision not struck?


    Question 2.  If there is no research need that is fulfilled by 
providing advance consent to Norway to retransfer U.S.-obligated spent 
fuel for reprocessing, why does the proposed agreement provide such 
consent?

    Answer. The United States inserts this language into its 123 
agreements in order to provide certainty to our nuclear trading 
partners that they have an alternative to keeping their spent fuel. 
Providing our trading partners with the ability to retransfer their 
spent fuel serves as an additional inducement not to consider 
reprocessing it themselves and thereby accrue separated plutonium.


    Question 3.  What, if anything, did Norway disclose to our 
negotiating team about its intent to exercise its rights under this 
provision by retransferring spent fuel for reprocessing?

    Answer. United States and Norwegian negotiators did not discuss 
whether or when Norway might send U.S.-obligated spent fuel to the 
United Kingdom or France. I would note that only a very small amount of 
nuclear material, less than two kilograms, is scheduled to be 
transferred from the United States to Norway over the course of the 
next year. Further, the United States would need to provide consent to 
Norway to receive any separated plutonium resulting from reprocessing 
U.S.-obligated material in the United Kingdom or France.


    Question 4.  What is your understanding of how much U.S.-obligated 
spent fuel Norway intends to reprocess under this provision, if any?

    Answer. Norway did not state any intention to reprocess any U.S.-
obligated nuclear material. I would also note that only a very small 
amount of nuclear material, less than two kilograms, is scheduled to be 
transferred from the United States to Norway over the course of the 
next year.


    Question 5.  What will be the intended use for any separated 
plutonium that results from such reprocessing?

    Answer. Any separated plutonium that might result from any 
reprocessing to occur in the United Kingdom or France would remain in 
storage in one of those two nations absent written consent of the 
United States to transfer it elsewhere, including back to Norway. The 
Norwegian government has not indicated any interest in obtaining any 
separated plutonium.



                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
